D                                                                        EMPLOYMENT AND TRAINING

U.S. Department of Labor
I
S
C
U
S
S
I
                                                                         ADMINISTRATION


O                          Office of Inspector General—Office of Audit
N

D
R
A
F
T




                                                                         THE U.S. DEPARTMENT OF LABOR’S
                                                                         EMPLOYMENT AND TRAINING ADMINISTRATION
                                                                         NEEDS TO STRENGTHEN CONTROLS OVER JOB
                                                                         CORPS FUNDS

                                                                         This report was prepared by KPMG LLP, under contract to the U.S.
                                                                         Department of Labor, Office of Inspector General, and by acceptance, it
                                                                         becomes a report of the Office of Inspector General.




                                                                                                                  U.S. Department of Labor
                                                                                                            Assistant Inspector General for Audit




                                                                                                       Date Issued:              May 31, 2013
                                                                                                    Report Number:           22-13-015-03-370
PAGE INTENTIONALLY LEFT BLANK
U.S. Department of Labor
Office of Inspector General                                  May 2013
Office of Audit
                                                             THE U.S. DEPARTMENT OF LABOR’S
                                                             EMPLOYMENT AND TRAINING
BRIEFLY…                                                     ADMINISTRATION NEEDS TO STRENGTHEN
Highlights of Report Number 22-13-015-03-370 issued          CONTROLS OVER JOB CORPS FUNDS
to the Acting Secretary and Deputy Secretary of Labor,
and the Assistant Secretary for Employment and               WHAT KPMG FOUND
Training.                                                    KPMG found that the root cause of the PY 2011 funding
                                                             shortfall which necessitated the $26.2 million budget
WHY READ THE REPORT                                          transfer request during PY 2011 was a combination of
In June 2012, the Secretary of Labor notified the U.S.       untimely communications of projected costs in excess
Department of Labor (DOL) Office of Inspector General        of total appropriations; initially planning for costs, based
(OIG) of insufficient funding in the Job Corps Program       on contract values and program commitments required
Year (PY) 2011 Operations appropriations. As a result        to meet Job Corps goals, in excess of appropriations;
of this insufficient funding, the Employment and             inaccurate inputs into cost projections; and a lack of
Training Administration’s (ETA) Office of Job Corps          consistent cost monitoring throughout the PY.
(OJC) froze student enrollment, and DOL requested
that the Office of Management and Budget transfer            KPMG reported that for the period July 1, 2012, through
$26.2 million from OJC Construction, Acquisition and         November 30, 2012 internal control deficiencies existed
Rehabilitation (CRA) funds to its operations account to      in the areas of: budget execution; data supporting
close this funding gap in PY 2011.                           spending projections and monitoring; monitoring of
                                                             projected to actual costs; and policies, procedures, and
WHY KPMG CONDUCTED THE AUDIT                                 communication of information that could adversely
In response to aforementioned notification, the              affect Job Corps funds and expenditures, including
Secretary of Labor requested the OIG to perform a            contracting activities.
review of the internal controls currently in place over
decentralized contract operations, both in the regions       WHAT KPMG RECOMMENDED
and at Headquarters, including preventative and              This audit resulted in 11 findings and
detective controls, and that the OIG provide a report of     6 recommendations related to Job Corps funds and
findings with any appropriate recommendations.               expenditures. In summary, KPMG recommended that
                                                             the Assistant Secretary for Employment and Training:
In response to this request, the DOL OIG engaged             (1) establish necessary criteria and thresholds for
KPMG to conduct a performance audit of Job Corps             detecting potential financial and program risks to be
funds and expenditures, including contracting activities.    routinely documented and communicated, and identify
Our testwork was performed from November 26, 2012,           the appropriate personnel within DOL to receive this
through April 19, 2013. Our scope period for testing was     periodic information; (2) develop and implement certain
Job Corps PY 2011 (July 1, 2011, through June 30,            formal policies and procedures or enhance certain
2012) and the first five months of PY 2012 (July 1, 2012     existing policies and procedures in various areas; (3)
through November 30, 2012).                                  conduct a formal assessment of human capital
                                                             resources needed for processes and internal controls
The objectives of this performance audit were to:            over Job Corps funds; (4) periodically review and
                                                             update the cost model policy to incorporate the use of
1. Determine the root cause of the PY 2011 funding           more current guidance and assumptions; (5) formally
   shortfall which necessitated the $26.2 million            reconcile data on a routine basis between Job Corps-
   budget transfer request during PY 2011; and               related systems; and (6) evaluate the
2. Determine if management had implemented a                 cost-benefit of creating system interfaces between Job
   properly designed system of internal controls over        Corps-related systems.
   Job Corps funds and expenditures, including
   contracting activities, during the first five months of
                                                             ETA agreed with KPMG’s findings and
   PY 2012 covering July 1, 2012 through November
                                                             recommendations and planned corrective actions to
   30, 2012.
                                                             address all recommendations.
READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2013/22-13-
015-03-370.pdf.
PAGE INTENTIONALLY LEFT BLANK
U.S. Department of Labor                             Office of Inspector General
                                                     Washington, D.C. 20210




May 31, 2013


MEMORANDUM FOR:                    JANE OATES
                                   Assistant Secretary
                                    for Employment and Training

                                   JAMES L. TAYLOR
                                   Chief Financial Officer




FROM:                              ELLIOT P. LEWIS
                                   Assistant Inspector General
                                    for Audit

SUBJECT:                           The U.S. Department of Labor’s Employment and Training
                                   Administration Needs to Strengthen Controls Over Job Corps
                                   Funds, Audit Report No. 22-13-015-03-370


Please find attached the final report of the performance audit over Job Corps funds and
expenditures, including contracting activities. In June 2012, the OIG was notified by the
Secretary of Labor of insufficient funding in the Office of Job Corps (OJC) Program
Year (PY) 2011 appropriations. The Secretary requested the OIG perform a review of internal
controls in place over Job Corps’ decentralized contract operations, both in the regions and at
Headquarters, including preventative and detective controls, and to provide a report of findings
from the review with any appropriate recommendations. Subsequently, we received several
congressional requests to review this matter. We contracted with the independent public
accounting firm of KPMG LLP (KPMG) to conduct the audit. 1

Summary of Audit Findings

The auditors determined the cause of the $19.4 million PY 2011 funding shortfall was due to a
number of programmatic, budgetary, and managerial factors. 2 Specifically, at the beginning of
PY 2011, Job Corps projected its operating costs could exceed the appropriations it received in
its Operations funds, and planned to make up any potential shortfall by using PY 2010
surpluses and other amounts transferred from its PY 2011 Construction, Rehabilitation, and

1
  KPMG is responsible for the attached report and the findings and results expressed in the report. In connection
with the contract, we reviewed KPMG’s report and related documentation and inquired of its representatives. Our
review disclosed no instances where KPMG did not comply, in all material respects, with GAGAS. The contract
required that the audit be conducted in accordance with Generally Accepted Government Auditing Standards
(GAGAS).
2
  ETA transferred $26.2 million from Job Corps Construction, Rehabilitation, and Acquisition funds to Job Corps
Operations funds as well as $2.2 million from other ETA funds. However, by the end of PY 2011, OJC only needed
$19.4 million to cover its funding shortfall, leaving $9 million of the transfers unexpended which could be used to
cover any possible overruns in the cost-reimbursable center operations contracts.
                                                    -2-


Acquisition (CRA) fund to its Operations fund. 3 However, the auditors were unable to determine
which management personnel may have known about the shortfall prior to April 2012.
Furthermore, the Department did not have established criteria and policy requiring notification of
such matters to appropriate management, including to the agency head and the Chief Financial
Officer, to allow senior management maximum flexibility and options to address such matters.
As PY 2011 progressed, the PY 2010 surpluses did not materialize and projected operating
costs significantly increased because Job Corps had erroneously excluded three center
contracts totaling $18 million from its initial projected costs. In April 2012, an ETA budget
analyst identified this problem, triggering communication within OJC and ultimately to the ETA
Assistant Secretary. The Secretary of Labor was notified in May 2012. However, because the
PY ended June 30, the options for addressing the matter were more limited.

In identifying the events that unfolded regarding the PY 2011 funding shortfall, the auditors
identified weaknesses in OJC’s spending plan. Specifically, OJC could not demonstrate they
established a sound budget or spending plan, and they did not reconcile all Job Corps financial
systems to ensure financial data was complete and accurate. Additionally, OJC did not routinely
monitor budgeted costs to actual costs nor did they communicate the status of the budget
execution to the appropriate officials, including the CFO.

Once it became aware of the PY 2011 funding shortfall, ETA implemented a number of
oversight and cost-savings measures, including instituting a management oversight process to
provide advice on short-term and long-term planning. ETA also established the Office of
Financial Administration (OFA) which was tasked to strengthen and coordinate existing internal
controls and to create new controls to monitor budgeted costs to actual costs. Additionally, OFA,
in coordination with ETA’s Office of Contracts Management, was tasked to ensure that Job
Corps more timely and accurately accounts for costs incurred in its cost-reimbursement
contracts.

Despite the Department’s efforts to increase oversight and implement cost-savings measures,
the auditors found that internal control deficiencies continued to exist over Job Corps funds and
expenditures for the first five months of PY 2012. In fact, they identified similar control
weaknesses that caused the previous year’s shortfall in the following areas: policies,
procedures, and communication of information related to financial and program risks; budget
execution; data supporting spending projections; and monitoring of projected to actual costs.
Specifically, management lacked procedures to formally communicate financial and program
risks, including funding shortfalls; ensure operating costs were projected accurately and
reviewed by appropriate officials prior to the beginning of the PY to allow for timely identification
and implementation of cost savings measures; and monitor projected to actual costs on Job
Corps contracts. The auditors also noted inadequate controls over the development of
independent government cost estimates used in soliciting and evaluating contractor proposals.
These control weaknesses, if not adequately addressed, could lead to further funding shortfalls
that could necessitate actions such as another moratorium on student enrollments.

Summary of Audit Recommendations

To improve the internal control process over Job Corps funds and expenditures, the auditors
recommended ETA: (1) establish criteria and thresholds for detecting potential financial and
program risks to be routinely documented and communicated; (2) develop and implement

3
 Public Law 112-10, Department of Defense and Full-Year Continuing Appropriations Act, 2011, allows DOL to
make funding transfers.
                                                -3-


formal policies and procedures or enhance existing policies and procedures in various areas;
(3) conduct a formal assessment of human capital resource needs for processes and internal
controls over Job Corps funds; (4) periodically review and update the policy for independent
government cost estimates used in Job Corps center contracting activities; (5) formally reconcile
data on a routine basis; and (6) evaluate the cost-benefit of creating system interfaces for three
information systems primarily used in supporting Job Corps operations.

Agency Response

ETA concurred with the report’s findings, stating that a number of measures have already been
taken to address the recommendations and that it is refining the process for OJC planning,
requirements determination, budgeting, and evaluation in order to enhance internal controls.
This effort is intended to lay out a more defined process for all aspects of OJC activity, financial
and contractual, for a program year in advance of the start of the year to allow for a more rapid
response to OJC budget changes. ETA points out that a key aspect will be the formalization of
significantly enhanced communications now occurring among ETA offices, its leadership and
the Department.

In accordance with DLMS 8 – Chapter 500, paragraph 533, which details the Department’s
responsibilities for resolution action, you should provide a written response within 60 days
indicating your agency’s agreement or disagreement with each recommendation contained in
the attached final report. If you agree with a recommendation, your response should explain the
planned corrective actions, identify officials responsible for such actions, and provide dates by
which the actions will be taken and full implementation achieved. If you disagree with a
recommendation, your response should fully explain the reasons for disagreement.

Lastly, we appreciate the cooperation and courtesies you and your staff have extended to the
contractor and OIG staff. If you have any questions, please contact Joseph L. Donovan, Jr.,
Audit Director, at (202) 693-5248.

Attachment


cc:    Robert Pitulej, OJC Acting National Director
       Linda Marshall, OJC Audit Liaison
       William W. Thompson, ETA Administrator of the Office of Management
            and Administrative Services
       Kevin Brumback, ETA Audit Liaison
       Gary Maupin, ETA OFA Administrator (Comptroller)
       Robert Balin, OCFO Audit Liaison
PAGE INTENTIONALLY LEFT BLANK
                                                                                            Prepared by KPMG LLP
                                                      for the U.S. Department of Labor – Office of Inspector General


Table of Contents
PERFORMANCE AUDIT REPORT ................................................................................ 1
RESULTS IN BRIEF ....................................................................................................... 2
RESULTS AND FINDINGS ............................................................................................. 5
Objective 1 — Determine the Root Cause of the Program Year 2011 Funding
Shortfall.......................................................................................................................... 5
               Finding 1 —   Lack of Retention of Documentation of the Program Year 2011
               Operations Spending Plan .........................................................................................7
Objective 2 — Has Management Implemented a Properly Designed System of
Internal Controls over Job Corps Funds and Expenditures, Including Contracting
Activities, for Program Year 2012? .............................................................................. 9
     Policies, Procedures, and Communication of Information ......................................................9
             Finding 2 —     Lack of Established Indicators Requiring Communication of
             Financial and Program Risks to Appropriate Personnel ........................................... 10
             Finding 3 —     Lack of National Office Standard Operating Procedures (SOPs)
             and Outdated Regional Office SOPs........................................................................11
             Finding 4 —     Lack of Formal Assessment of Human Capital Resource Needs
             for Processes and Controls over Job Corps Funds ..................................................11
     Budget Execution .............................................................................................................12
             Finding 5 —     Unsupported Assumptions in the Initial PY 2012 Operations
             Spending Plan ........................................................................................................13
             Finding 6 —     Insufficient Documentation of Analysis to Support Amounts
             Requested for Quarterly Apportionments .................................................................14
     Data Supporting Spending Projections and Monitoring........................................................15
             Finding 7 —     Lack of Periodic Review of Cost Policy for the Job Corps
             Independent Government Cost Estimate .................................................................15
             Finding 8 —     Lack of Reconciliation Controls Related to Information Systems
             Used in Job Corps Activities ....................................................................................16
             Finding 9 —     Insufficient Monitoring over Job Corps Contract Vouchers .............. 17
     Monitoring of Projected to Actual Costs ...............................................................................18
             Finding 10 — Lack of Recurring Monitoring over Budget to Actual Job Corps
             Contract Costs at the National Office .......................................................................19
             Finding 11 — Insufficient Monitoring over Job Corps Center Contractors’ Cost
             Reports at the Regional Offices ...............................................................................20
RECOMMENDATIONS ................................................................................................. 23
Appendices .................................................................................................................. 25
     Appendix A Background ......................................................................................................27
     Appendix B Objectives, Scope, Methodology, and Criteria ..................................................31
     Appendix C Acronyms and Abbreviations............................................................................33
     Appendix D Employment and Training Administration Response to Draft Report ................ 35



                                                                                     The U.S. Department of Labor’s
                                                                             Employment and Training Administration
                                                                  Needs to Strengthen Controls over Job Corps Funds
                                                                                       Report No. 22-13-015-03-370
                                              Prepared by KPMG LLP
        for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    The U.S. Department of Labor’s
                            Employment and Training Administration
                 Needs to Strengthen Controls over Job Corps Funds
                                      Report No. 22-13-015-03-370
                                                                                      Prepared by KPMG LLP
                                                for the U.S. Department of Labor – Office of Inspector General




                      KPMG LLP
                      Suite 12000
                      1801 K Street, NW
                      Washington, DC 20006




Mr. Seth D. Harris, Acting Secretary and Deputy Secretary of Labor
Ms. Jane Oates, Assistant Secretary for Employment and Training
Mr. Elliot P. Lewis, Assistant Inspector General for Audit
U.S. Department of Labor
Washington, DC 20210

Mr. Harris, Ms. Oates, and Mr. Lewis,

In June 2012, the Secretary of Labor notified the U.S. Department of Labor (DOL) Office
of Inspector General (OIG) of insufficient funding in the Job Corps Program Year (PY)
2011 Operations appropriations. As a result of this insufficient funding, the Employment
and Training Administration’s (ETA) Office of Job Corps (OJC) froze student enrollment,
and DOL requested that the Office of Management and Budget (OMB) transfer $26.2
million from OJC Construction, Acquisition and Rehabilitation (CRA) funds to its
operations account to close this funding gap in PY 2011.

In this notification, the Secretary of Labor requested the OIG to perform a review of the
internal controls currently in place over decentralized contract operations, both in the
regions and at Headquarters, including preventative and detective controls, and that the
OIG provide a report of findings with any appropriate recommendations.

In response to this request, the DOL OIG engaged us to conduct a performance audit of
Job Corps funds and expenditures, including contracting activities. Our testwork was
performed from November 26, 2012, through April 19, 2013. Our scope period for
testing was Job Corps PY 2011 (July 1, 2011 through June 30, 2012) and the first five
months of PY 2012 (July 1 through November 30, 2012).

We conducted this audit in accordance with the performance audit standards contained
in Government Auditing Standards, issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate audit evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our objectives.
Criteria used for this audit is defined in the Government Accountability Office’s
Standards on Internal Control in the Federal Government.


                                                                                    The U.S. Department of Labor’s
                                                                            Employment and Training Administration
                                                                 Needs to Strengthen Controls over Job Corps Funds
                                                                1                     Report No. 22-13-015-03-370
                             KPMG LLP is a Delaware limited liability partnership,
                             the U.S. member firm of KPMG International Cooperative
                             (“KPMG International”), a Swiss entity.
                                                                                 Prepared by KPMG LLP
                                           for the U.S. Department of Labor – Office of Inspector General




The objectives of our audit of Job Corps funds and expenditures, including contracting
activities, were to:

1. Determine the root cause of the PY 2011 funding shortfall which necessitated the
   $26.2 million budget transfer request during PY 2011; and

2. Determine if management had implemented a properly designed system of internal
   controls over Job Corps funds and expenditures, including contracting activities,
   during the first five months of PY 2012 covering July 1, 2012 through November 30,
   2012.

Our performance audit scope included factors related to the Job Corps PY 2011 funding
shortfall and processes and internal controls related to Job Corps funds management,
contracting activities, and payments/expenditures during the first five months of
PY 2012. To determine the root cause of the PY 2011 funding shortfall, we conducted
interviews with key management personnel and reviewed documentation. During our
work over the first five months of PY 2012, we reviewed existing policies and
procedures, performed walkthroughs at the National Office and one of six Regional
Offices, and selected nonstatistical samples for testing, to assess DOL’s design and
implementation of internal controls over Job Corps funds and expenditures using the
Government Accountability Office’s (GAO) Standards on Internal Control in the Federal
Government as criteria.

RESULTS IN BRIEF

Based upon the performance audit procedures conducted and the evidence obtained,
we have met our audit objective #1. The root cause of the PY 2011 funding shortfall
which necessitated the $26.2 million budget transfer request during PY 2011 was a
combination of untimely communications of projected costs in excess of total
appropriations; initially planning for costs, based on contract values and program
commitments required to meet Job Corps goals, in excess of appropriations; inaccurate
inputs into cost projections; and a lack of consistent cost monitoring throughout the PY.

At the beginning of Job Corps PY 2011, OJC projected costs greater than
appropriations in its Operations funds. To cover the potential PY 2011 shortfall, OJC
planned to use certain anticipated PY 2010 surpluses and amounts available in the PY
2011 appropriations act 1 to be transferred from its CRA funds to its Operations fund. As
the PY progressed, the anticipated PY 2010 surpluses did not materialize, and
projected Operations costs increased primarily because of an erroneous exclusion of
certain Job Corps center contracts from initial projected costs. In April 2012, an ETA

1
    Public Law 112-10, Department of Defense and Full-Year Continuing Appropriations Act, 2011
                                                                        The U.S. Department of Labor’s
                                                                Employment and Training Administration
                                                     Needs to Strengthen Controls over Job Corps Funds
                                                   2                      Report No. 22-13-015-03-370
                                                                           Prepared by KPMG LLP
                                     for the U.S. Department of Labor – Office of Inspector General




budget analyst recognized that insufficient funding existed to cover expected obligations
for the last quarter of the PY. The issue was communicated to and within OJC and then
communicated to the Assistant Secretary for Employment and Training in April 2012
and to the Secretary of Labor in May 2012. Subsequently, DOL transferred allowable
amounts from the CRA fund to the Operations fund in the amount of $26.2 million,
transferred reprogrammed amounts from the ETA Training and Employment Services
appropriation of $2.2 million, and implemented cost-saving measures to close the
funding gap in PY 2011.

Based upon the performance audit procedures conducted and the evidence obtained,
we have met our audit objective #2. We conclude that for the period July 1, 2012
through November 30, 2012 (i.e., the first five months of PY 2012) internal control
deficiencies existed in the areas of policies, procedures, and communication of
information; budget execution; data supporting spending projections and monitoring;
and monitoring of projected to actual costs that could adversely affect Job Corps funds
and expenditures, including contracting activities.

Our audit resulted in 11 findings and 6 recommendations related to Job Corps funds
and expenditures. Sections Objective 1, Objective 2, and Recommendations present
the details that support these findings and recommendations. In summary, we
recommend that the Assistant Secretary for Employment and Training Administration
(1) establish necessary criteria and thresholds for detecting potential financial and
program risks to be routinely documented and communicated, and identify the
appropriate personnel within DOL to receive this periodic information; (2) develop and
implement certain formal policies and procedures or enhance certain existing policies
and procedures in various areas; (3) conduct a formal assessment of human capital
resources needed for processes and internal controls over Job Corps funds;
(4) periodically review and update the cost model policy to incorporate the use of more
current guidance and assumptions; (5) formally reconcile data on a routine basis
between Job Corps-related systems; and (6) evaluate the cost-benefit of creating
system interfaces between Job Corps-related systems.

DOL’s responses to the recommendations are included as an appendix within the final
report (Appendix D). DOL concurred with all recommendations.

This performance audit did not constitute an audit of the DOL’s financial statements in
accordance with Government Auditing Standards. KPMG was not engaged to, and did
not render an opinion on the DOL’s internal controls over financial reporting or over
financial management systems (for purposes of the OMB’s Circular No. A-127,
Financial Management Systems, July 23, 1993, as revised). KPMG cautions that
projecting the results of this audit to future periods is subject to the risks that controls

                                                                 The U.S. Department of Labor’s
                                                         Employment and Training Administration
                                              Needs to Strengthen Controls over Job Corps Funds
                                             3                     Report No. 22-13-015-03-370
                                                                       Prepared by KPMG LLP
                                 for the U.S. Department of Labor – Office of Inspector General




may become inadequate because of changes in conditions or because compliance with
controls may deteriorate.

Very truly yours,




May 24, 2013




                                                             The U.S. Department of Labor’s
                                                     Employment and Training Administration
                                          Needs to Strengthen Controls over Job Corps Funds
                                         4                     Report No. 22-13-015-03-370
                                                                                Prepared by KPMG LLP
                                          for the U.S. Department of Labor – Office of Inspector General



RESULTS AND FINDINGS

Objective 1 — Determine the Root Cause of the Program Year 2011 Funding
             Shortfall

Based on the evidence we obtained during our performance audit, the root cause of the
Department of Labor’s (DOL) need for the $26.2 million budget transfer request during
Job Corps program year (PY) 2011 was a number of programmatic, budgetary, and
managerial factors. These factors resulted in the execution of a program, which without
modifying the program or requesting budget transfers, would have exceeded its enacted
appropriation level. Specifically, the need for the PY 2011 budget transfer request was a
combination of: untimely communications of projected costs in excess of total
appropriations; initially planning for costs, based on contract values and program
commitments required to meet Job Corps goals, in excess of appropriations; inaccurate
inputs into cost projections; and a lack of consistent cost monitoring throughout the PY,
as discussed below.

The Office of Job Corps (OJC) is located within DOL’s Employment and Training
Administration (ETA). As such, the National Director of Job Corps has a direct reporting
line to the Deputy Assistant Secretary for Employment and Training. In PY 2011, Job
Corps program, budget, and accounting functions were included within OJC and
reported to the National Director of Job Corps.

Job Corps Operations funds were initially appropriated $1.572 billion for Job Corps PY
2011, and a subsequent appropriations act allowed for the transfer and obligation of
$26.2 million of Construction, Acquisition and Rehabilitation (CRA) funds for Operations
activities, if necessary 2. In addition, OJC indicated that it had anticipated using certain
PY 2010 surpluses for PY 2011; however, those surpluses did not materialize because
of increased Operations costs.

At the beginning of Job Corps PY 2011, total Operations fund costs were projected at
$1.610 billion3, which was higher than Operations funds appropriations by
approximately $38 million, according to one of two Job Corps PY 2011 spending plans
provided during our audit. Of the total Operations funds costs, Job Corps center
planned costs were $1.037 billion 3. This spending plan included only amounts
appropriated to the Operations funds and did not account for the $26.2 million of CRA
funds which could be transferred and obligated for Operations activities. The other
spending plan provided included total projected Operations funds costs at $1.572 billion,
which agreed to appropriated levels; the amounts in this spending plan’s cost categories
agreed with the other spending plan except that Job Corps center planned costs were
$1.001 billion instead of $1.037 billion per the other spending plan. However, of the two

2
  Source: Public Law 112-10, Department of Defense and Full-Year Continuing Appropriations Act, 2011,
dated April 15, 2011.
3
  Source: report dated July 29, 2011 from the Job Corps Funds Allocation System (JFAS).
                                                                         The U.S. Department of Labor’s
                                                                Employment and Training Administration
                                                     Needs to Strengthen Controls over Job Corps Funds
                                                    5                      Report No. 22-13-015-03-370
                                                                              Prepared by KPMG LLP
                                        for the U.S. Department of Labor – Office of Inspector General

spending plans provided, neither ETA nor OJC was able to confirm if either plan was
the initial PY 2011 operations spending plan which included the initial projection of
Operations funds costs.

During PY 2011, projected Operations costs rose to approximately $50 million above
appropriated levels as of October 2011, including planned Job Corps center costs of
$1.050 billion 4. This increase primarily resulted from $18 million of estimated costs for
three Job Corps center contracts which were erroneously excluded from initial projected
costs because they were not manually recorded within Job Corps Fund Allocation
System (JFAS) before the program year began 5.

By January 2012, the amount of the projected Operations costs overrun was reduced to
$41 million. This reduction was primarily caused by a downward adjustment of one Job
Corps center’s planned Operations costs in the amount of $12 million5.

In April 2012, an ETA budget analyst who was responsible for Job Corps funds
apportionments recognized that insufficient funding existed to continue Job Corps
operations based on remaining funding available and expected obligations for the last
quarter of the program year. This issue was communicated to and within OJC and
eventually communicated to the Assistant Secretary for Employment and Training in
April 2012 and to the Secretary of Labor in May 2012. Although we inquired about
earlier communications external to OJC related to this issue, DOL was unable to
provide evidence as to which management personnel knew about which shortfall
amounts noted above prior to April 2012.

In June 2012, ETA transferred $26.2 million from Job Corps CRA funds to the
Operations funds and transferred $2.2 million of a $6.6 million reprogramming request
submitted by the DOL from the ETA Training and Employment Services appropriation.
In addition, OJC initiated cost savings by freezing new enrollments for the month of
June 2012. In June 2012, ETA began drafting a memorandum highlighting potential cost
savings measures for PY 2012, which was finalized in September 2012.

See Figure 1 below for a summary of the PY 2011 appropriations, projected operating
costs, and amounts of projected operating costs in excess of appropriations.




4
 Source: JFAS report dated October 3, 2011.
5
 Source: JFAS report dated March 27, 2013 that showed the adjustments to planned Job Corps center
costs.
                                                                    The U.S. Department of Labor’s
                                                            Employment and Training Administration
                                                 Needs to Strengthen Controls over Job Corps Funds
                                                6                     Report No. 22-13-015-03-370
                                                                                  Prepared by KPMG LLP
                                            for the U.S. Department of Labor – Office of Inspector General



Figure 1 (dollars in millions)

                                                                                        Excess of
                                                                    Job Corps             Total
                                                 Total
                                                                      Center            Projected
      PY 2011             PY 2011              Projected
                                                                     Contract           Operating
       Period          Appropriations          Operating
                                                                    Projected             Costs
                                                 Costs
                                                                      Costs 6          over/(under)
                                                                                      Appropriations
Spend Plan #1                     $1,572              $1,610              $1,037                 $38
Spend Plan #2                      1,572               1,572                1,001                   0
October                            1,572               1,622                1,050                 50
January                            1,572               1,613                1,038                 41
June Final 7                       1,600               1,591      Information not                 (9)
                                                                        available

Finding 1 —         Lack of Retention of Documentation of the Program Year 2011
                    Operations Spending Plan

During our procedures to determine the root cause of the PY 2011 funding shortfall, we
requested that ETA provide to us the initial PY 2011 operations spending plan and all
updates to the plan during the program year. However, as noted above, ETA was
unable to identify for us the initial PY 2011 operations spending plan. To partially
address our request, ETA provided two PY 2011 operations spending plans and
documentation from June 2012 which noted available funds and projected expenditures.

For PY 2011, ETA did not develop and implement policies and procedures that required
the retention of all documentation supporting the PY 2011 operations spending plan.

The Government Accountability Office (GAO) Standards for Internal Control in the
Federal Government (the Standards) states:

          Internal control and all transactions and other significant events need to be
          clearly documented, and the documentation should be readily available for
          examination. The documentation should appear in management
          directives, administrative policies, or operating manuals and may be in
          paper or electronic form. All documentation and records should be
          properly managed and maintained.




6
    These amounts are included within the Total Projected Operating Costs.
7
    Source: New Core Financial Management System report as of June 30, 2012.
                                                                           The U.S. Department of Labor’s
                                                                  Employment and Training Administration
                                                       Needs to Strengthen Controls over Job Corps Funds
                                                      7                      Report No. 22-13-015-03-370
                                                                            Prepared by KPMG LLP
                                      for the U.S. Department of Labor – Office of Inspector General



The Standards also states:

        Internal control should generally be designed to assure that ongoing
        monitoring occurs in the course of normal operations. It is performed
        continually and is ingrained in the agency’s operations. It includes regular
        management and supervisory activities, comparisons, reconciliations, and
        other actions people take in performing their duties.

Inadequate records of the initial PY 2011 spending plan may have hindered
management’s ability to properly and consistently monitor actual costs in comparison to
planned costs because of an inability to determine initial assumptions and factors for
planned costs.

                                          **********

ETA represented to us that the following corrective actions were taken to address the
Job Corps programmatic, budgetary, and managerial issues noted in PY 2011:

•   Upon notification of the potential funding shortfall in PY 2011, the Secretary of
    Labor instituted a managerial oversight process. Regular participants in that
    process included ETA executive management and representatives from the Office
    of Chief Financial Officer (OCFO), the Office of the Assistant Secretary for
    Administration and Management (OASAM), the Office of the Solicitor, and other
    departmental offices. This process resulted in regularly convened meetings in
    which budget, contracting, and operational issues bearing on the PY 2011 or 2012
    shortfalls were addressed – with objectives ranging from short-term cost savings to
    longer-term structural changes to the program. These meetings were used to
    regularly brief the Deputy Secretary on all aspects of the OJC funding situation and
    remediation efforts.
•   The oversight committee instituted or reviewed the following process and
    management improvements:

    •   Increased coordination between OJC, ETA, and the oversight committee and its
        working bodies.
    •   Created a weekly process in May 2012 to generate and review analyses of
        various cost saving measures and/or cost projections based on potential
        implementation of the measures for PY 2011 and PY 2012.
    •   Initiated and reviewed the development of a comprehensive list of possible
        administrative and programmatic cost savings efforts organized by
        implementation timeframe for PY 2012 planning purposes.
    •   Instituted investigation into the usefulness and availability of Job Corps Data
        Center (JCDC) information.

                                                                  The U.S. Department of Labor’s
                                                          Employment and Training Administration
                                               Needs to Strengthen Controls over Job Corps Funds
                                              8                     Report No. 22-13-015-03-370
                                                                          Prepared by KPMG LLP
                                    for the U.S. Department of Labor – Office of Inspector General

   •   Integrated JCDC information into cost projections for the PY 2012 Spending
       Plan in November 2012.
   •   Initiated development of a cost characteristic analysis in preparation of
       developing a cost prediction model.
   •   Initiated and reviewed the development of an on-board strength-based cost
       prediction model for use in budgeting and cost savings planning.
   •   Re-organized the ETA and OJC financial management function into an
       integrated unit within ETA, the Office of Financial Administration (OFA), headed
       by a Senior Executive Service level comptroller in August 2012.
   •   Conducted and published a skill assessment for all DOL financial personnel in
       September 2012.

Objective 2 — Has Management Implemented a Properly Designed System of
              Internal Controls over Job Corps Funds and Expenditures,
              Including Contracting Activities, for Program Year 2012?

To address this objective, we categorized our testing into the following four key areas:
policies, procedures, and communication of information; budget execution; data
supporting spending projections and monitoring; and monitoring of projected to actual
costs. In each of these areas, we identified internal control deficiencies that could
adversely affect Job Corps funds and expenditures, including contracting activities.

Policies, Procedures, and Communication of Information

Per the GAO Standards, in implementing the five standards of internal control,
“Management is responsible for developing the detailed policies, procedures, and
practices to fit their agency’s operations and to ensure that they are built into and an
integral part of operations.”

Additionally, the Standards states, “For an entity to run and control its operations, it
must have relevant, reliable, and timely communications relating to internal as well as
external events. Information is needed throughout the agency to achieve all of its
objectives. Program managers need both operational and financial data to determine
whether they are meeting their agencies’ strategic and annual performance plans and
meeting their goals for accountability for effective and efficient use of
resources…Financial information is needed for both external and internal uses. It is
required to develop financial statements for periodic external reporting, and, on a day-
to-day basis, to make operating decisions, monitor performance, and allocation
resources.”




                                                                The U.S. Department of Labor’s
                                                        Employment and Training Administration
                                             Needs to Strengthen Controls over Job Corps Funds
                                            9                     Report No. 22-13-015-03-370
                                                                           Prepared by KPMG LLP
                                     for the U.S. Department of Labor – Office of Inspector General



During our audit, we identified the following specific control deficiencies related to
policies, procedures, and communication of information:

Finding 2 — Lack of Established Indicators Requiring                     Communication          of
Financial and Program Risks to Appropriate Personnel

OJC roles and responsibilities include Job Corps program administration, and prior to
August 2012, budget and accounting. In addition to OJC, ETA and the OCFO have
responsibilities related to the Job Corps program. ETA administers the Job Corps
program through the OJC, and as such, has oversight responsibilities in the
performance of the program. Additionally, in August 2012, ETA’s OFA was created to
segregate the Job Corps budget and accounting roles and responsibilities from OJC.
The OCFO is responsible for the financial leadership of DOL, and its primary duty is to
uphold strong financial management and accountability while providing timely, accurate,
and reliable financial information and enhancing internal control.

As noted above, during the period July 1 to November 30, 2012, frequent meetings
were held among personnel from OJC, ETA, OCFO, and other DOL offices to address
PY 2012 potential funding shortfall and other matters. OJC, ETA, and OCFO personnel
stated that during their frequent meetings, potential financial and program risks present
in PY 2012 were identified and communicated to appropriate DOL personnel. However,
the process conducted in PY 2012 does not appear sustainable or efficient for future
periods. While this oversight structure was necessary to resolve the immediate OJC
funding issues, no formal, systematic reporting procedures were established based on
defined criteria or quantitative thresholds to communicate financial and program risks,
including potential funding shortfalls.

Formal, systematic reporting procedures were not developed because the frequent
meetings among various DOL personnel noted above provided the information needed
at the time to address the immediate PY 2012 potential funding shortfall issues.

The GAO Standards states:

      Management needs to comprehensively identify risks and should consider
      all significant interactions between the entity and other parties as well as
      internal factors at both the entitywide and activity level. Risk identification
      methods may include qualitative and quantitative ranking activities,
      management conferences, forecasting and strategic planning, and
      consideration of findings from audits and other assessments.

The Standards also states:

      Because governmental, economic, industry, regulatory, and operating
      conditions continually change, mechanisms should be provided to identify
      and deal with any specific risks prompted by such changes.
                                                                 The U.S. Department of Labor’s
                                                         Employment and Training Administration
                                              Needs to Strengthen Controls over Job Corps Funds
                                             10                    Report No. 22-13-015-03-370
                                                                           Prepared by KPMG LLP
                                     for the U.S. Department of Labor – Office of Inspector General



Without formal, systematic procedures using established criteria or quantitative
thresholds to detect potential financial and program risks and identifying appropriate
personnel within DOL with which to communicate those risks, all appropriate personnel
may not be aware of such risks, and corrective actions to address them may not be
implemented in a timely manner.

Finding 3 — Lack of National Office Standard Operating Procedures (SOPs) and
Outdated Regional Office SOPs

For the period July 1 to November 30, 2012, we found that OFA had not developed any
formal policies or procedures and that OCM and OJC maintained minimal policies and
procedures that specifically addressed unique aspects of Job Corps activities, such as
monitoring over the six Regional Offices and Job Corps contract file maintenance.
Additionally, OJC Regional Offices had outdated standard operating procedures that did
not accurately reflect current processes or defined roles and responsibilities within DOL
associated with Job Corps funds management, contracting, and payment/expenditure
activities. The standard operating procedures provided at the Regional Office we visited
were created in 2008, referred to DOL’s previous financial management system, and did
not define new roles and responsibilities of recently created or restructured offices, such
as OFA, OCM, and OJC.

ETA, after forming OFA and hiring new staff in the Fall of 2012, focused resources on
remediating the effects of the PY 2011 funding shortfall and prioritizing PY 2012 cost
saving measures, instead of first developing or updating policies and procedures.

The GAO Standards states:

      …management is responsible for developing the detailed policies,
      procedures, and practices to fit their agency’s operations and to ensure
      that they are built into and an integral part of operations.

Without adequate up-to-date policies and procedures specific to Job Corps activities,
individuals may not be aware of their roles and responsibilities regarding budget
development, contracting, and monitoring activities.

Finding 4 — Lack of Formal Assessment of Human Capital Resource Needs for
Processes and Controls over Job Corps Funds

To determine whether sufficient personnel with correct skill sets are in place,
organizations perform formal assessments of human capital resource needs. Although
ETA performed informal assessments over human capital resource needs through the
analysis of vacant positions in its organizational structure charts, we found that ETA did
not perform formal assessments to address the sufficiency of personnel with
appropriate skill sets required to achieve strategic goals and mitigate related risks.

                                                                 The U.S. Department of Labor’s
                                                         Employment and Training Administration
                                              Needs to Strengthen Controls over Job Corps Funds
                                             11                    Report No. 22-13-015-03-370
                                                                                 Prepared by KPMG LLP
                                           for the U.S. Department of Labor – Office of Inspector General

ETA stated that a formal assessment of human capital resources needs was not
performed because informal estimates were used as an alternate so that resources
could be used to establish OFA by August 2012, remediate the effects of the PY 2011
funding shortfall, and prioritize PY 2012 cost saving measures.

The GAO Standards states:

        Only when the right personnel for the job are on board and are provided
        the right training, tools, structure, incentives, and responsibilities is
        operational success possible. Management should ensure that skill needs
        are continually assessed and that the organization is able to obtain a
        workforce that has the required skills that match those necessary to
        achieve organizational goals.

Without a formal human capital resource analysis, sufficient resources with proper skill
sets may not be allocated to perform the required duties to effectively manage the Job
Corps program.

Budget Execution

The Job Corps PY runs from July 1 to June 30. As such, the initial annual spending
plans are to be prepared prior to July 1 for the Operations and Construction funds and
prior to October 1 for the Administration fund 8. The ETA OFA Comptroller or Budget
Officer 9 is to approve these spending plans, and DOL is to submit them to the Office of
Management and Budget (OMB) when requesting apportionments.

Once funds are apportioned, ETA submits allotment requests to the Departmental
Budget Center (DBC) and the Office of the Chief Financial Officer (OCFO), which then
allot funds and make them available for obligation throughout the PY. ETA apportioned
by quarter, as required by OMB, its PY 2012 Operations funds based on prior year
history and input from the Job Corps program personnel.

The Job Corps program uses cost reimbursable contracts for the majority (65% 10 in PY
2011) of its operations costs and program requirements. These cost reimbursable
contracts include estimated cost clauses which establish an estimate of total costs for
obligating funds and set a cost ceiling that contractors cannot exceed without approval
from a Contracting Officer (CO). In addition, these contracts include an Availability of
Funds clause which establishes a contingency that DOL payments for such contracts
depend on the availability of appropriated funds. Projected costs from these contracts


8
  Administration costs, funded with single-year appropriations, are projected on a fiscal year basis unlike
other Job Corps costs.
9
   Prior to the creation of ETA OFA in August 2012, the National Director of Job Corps had this
responsibility.
10
   Source: PY 2012 Spending Plan dated November 19, 2012, which indicated PY 2011 actual amounts
of $1.021 billion cost reimbursable contracts and $1.580 billion total Operations spending.
                                                                            The U.S. Department of Labor’s
                                                                   Employment and Training Administration
                                                      Needs to Strengthen Controls over Job Corps Funds
                                                    12                         Report No. 22-13-015-03-370
                                                                                  Prepared by KPMG LLP
                                            for the U.S. Department of Labor – Office of Inspector General

present an element of unpredictability in the budget development process that must be
managed.

As discussed under audit objective #1, OJC originally projected that total Operations
fund costs for PY 2011 would exceed appropriations. In PY 2012, OJC also projected
that if the Job Corps program continued its normal ongoing operations, it would exceed
its appropriation. DOL was aware of the projected shortfall at the beginning of PY 2012
and began evaluating options available to reduce the program scope to within its
appropriations. Job Corps Operations funds received appropriations of $1.569 billion for
PY 2012, and the Consolidated Appropriations Act, 2012 allows for a 15% transfer of
the $104.8 million appropriated for CRA funds, or $15.7 million, for Operations
activities 11, if necessary. The initial PY 2012 Operations spending plan was created in
June 2012, which was before the start of PY 2012, to indicate projected total operating
costs equal to appropriations, because management planned to reduce the program
scope to operate within its appropriation. In November 2012, projected costs were
updated to $1.633 billion, which was $64.0 million higher than appropriated levels,
without accounting for any cost savings measures. See Figure 2 below for a summary of
the PY 2012 appropriations, projected operating costs, and amounts of projected
operating costs in excess of appropriations through November 30, 2012.

Figure 2 (dollars in millions)

                                                 Projected             Excess of Total
                            PY 2012                Total             Projected Operating
PY 2012 Period
                         Appropriations          Operating               Costs over
                                                   Costs               Appropriations
June 2012                          $1,569             $1,569                           $0
November 2012                       1,569               1,633                          64

Specifically, we identified the following control deficiencies in budget execution:

Finding 5 —         Unsupported Assumptions in the Initial PY 2012 Operations
                    Spending Plan

The initial PY 2012 operations spending plan submitted to OMB included projected
costs of $1.569 billion and appropriations of $1.569 billion. As discussed above, ETA
personnel indicated that these PY 2012 projected costs were designed to equal
appropriations because management planned to reduce the program scope to operate
within its appropriation. However, because ETA had not yet completed its plan to
sufficiently reduce the program scope, ETA was unable to support key plan
assumptions and data source inputs in the initial version of the PY 2012 operations
spending plan.



11
     Source: Public Law 112-74, Consolidated Appropriations Act, 2012, dated December 23, 2011.
                                                                          The U.S. Department of Labor’s
                                                                  Employment and Training Administration
                                                     Needs to Strengthen Controls over Job Corps Funds
                                                   13                       Report No. 22-13-015-03-370
                                                                          Prepared by KPMG LLP
                                    for the U.S. Department of Labor – Office of Inspector General

No formal policies or procedures were implemented to properly document and maintain
support for key plan assumptions and data source inputs for the initial version of an
operations spending plan. Additionally, ETA personnel stated that they did not dedicate
resources to support the initial key plan assumptions and data source inputs in PY 2012
because they knew such assumptions and data source inputs would likely change upon
adjusting the program scope.

The GAO Standards states:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

Without documentation to support key plan assumptions and data source inputs in the
initial version of the PY 2012 operations spending plan, management cannot support
that Operations costs were projected accurately and appropriately reviewed prior to the
beginning of the PY to allow for actions, such as the timely identification and
implementation of sufficient cost savings measures, needed to effectively manage Job
Corps funds.

Finding 6 —    Insufficient Documentation of Analysis to Support Amounts
               Requested for Quarterly Apportionments

ETA personnel indicated that Operations funds were apportioned by quarter, as
required by OMB, based on prior year history and input from the Job Corps program
personnel. However, documentation was not maintained to support an analysis over the
PY 2012 Operations quarterly apportionment requests versus the projected operational
needs by quarter.

For PY 2012, ETA did not develop and implement policies or procedures to prepare and
maintain documentation supporting the determination of each quarterly apportionment
request based on an analysis of projected operational needs.

The GAO Standards states:

      Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.


                                                                The U.S. Department of Labor’s
                                                        Employment and Training Administration
                                             Needs to Strengthen Controls over Job Corps Funds
                                            14                    Report No. 22-13-015-03-370
                                                                          Prepared by KPMG LLP
                                    for the U.S. Department of Labor – Office of Inspector General

Without support indicating that proper analysis was completed to ensure that quarterly
amounts requested for apportionment were based on projected operational needs,
funds required to operate the Job Corps program may not be appropriately and
efficiently allocated throughout the year.

Data Supporting Spending Projections and Monitoring

Job Corps contracting activities are primarily initiated by OJC Regional Office personnel
who communicate with the OFA within ETA to determine if funding is available for Job
Corps center contracting. If budgeting for a potential contract is allowed, the OFA
budget division creates an Independent Government Cost Estimate (IGCE) which is
later used to assist the OCM contracting officers in soliciting and evaluating proposals.
Before the creation of OFA in August 2012, available funding was determined by the
OJC National Office.

The CORs at the OJC Regional Offices work with COs within OCM in the pre-
solicitation through proposal phases of each contract. Once a CO awards a contract, an
obligation is recorded in the New Core Financial Management System (NCFMS) by
OCM. For cost reimbursable contract awards, obligations are incrementally recorded in
NCFMS by OFA for each contract on a quarterly basis. Also, OFA manually records the
estimated cost for each contract into JFAS and Job Corps Financial Management
System (JC-FMS) for monitoring purposes.

Given the nature of cost reimbursable contracts associated with Operations funds,
projected costs are primarily determined based on estimated costs contained in each
contract awarded by OCM. OCM utilizes the IGCEs to determine whether initial
estimates provided by the contractor are reasonable. These projected costs are
manually recorded by OFA and maintained within the JC-FMS and JFAS. Before the
creation of OFA, program analysts within OJC manually recorded these projected costs.

Actual reimbursed and unreimbursed costs are manually recorded into JC-FMS by Job
Corps center contractors and are reviewed by OJC Regional Office CORs. Actual
reimbursed costs are approved by the COR and processed for payment in NCFMS by
DOL’s OASAM.

During our audit, we identified the following control deficiencies related to data
supporting spending projections and monitoring:

Finding 7 — Lack of Periodic Review of Cost Policy for the Job Corps
Independent Government Cost Estimate

ETA established a cost policy for developing cost models applied in determining the
IGCE used in Job Corps center contracting activities. This policy was dated 1986. ETA
did not have procedures in place to monitor this policy and update it to incorporate more
current guidance and assumptions based on Job Corps activities since 1986.

                                                                The U.S. Department of Labor’s
                                                        Employment and Training Administration
                                             Needs to Strengthen Controls over Job Corps Funds
                                            15                    Report No. 22-13-015-03-370
                                                                           Prepared by KPMG LLP
                                     for the U.S. Department of Labor – Office of Inspector General

ETA did not develop procedures to monitor the policy for developing cost models
applied in determining the IGCE and update such policy as personnel believed such
guidelines were valid.

The GAO Standards states:

       …management is responsible for developing the detailed policies,
       procedures, and practices to fit their agency’s operations and to ensure
       that they are built into and an integral part of operations.

The Standards also states:

       Internal control should generally be designed to assure that ongoing
       monitoring occurs in the course of normal operations. It is performed
       continually and is ingrained in the agency’s operations. It includes regular
       management and supervisory activities, comparisons, reconciliations, and
       other actions people take in performing their duties.

Without procedures to periodically review and update cost model policies, developed
IGCEs may not provide an adequate basis of comparison when assessing acceptable
contract award amounts, potentially resulting in the award of more costly contracts than
necessary.

Finding 8 — Lack of Reconciliation Controls Related to Information Systems
Used in Job Corps Activities

Data used in supporting Job Corps spending plan projections and monitoring is located
primarily in the following three information systems:

•   JFAS is OFA’s contract financial management system for Job Corps. It contains the
    actual contract values of all Job Corps’ contracts that have been awarded during a
    program year, records future contract year amounts, and tracks all approved
    contractual changes and funding throughout the life of each contract.
•   JC-FMS is a Job Corps information system for the contractors. The contractors input
    their approved contract award amounts (budgets) and their actual expenditures
    related to the execution of the terms of their contracts.
•   NCFMS is DOL’s financial system of record. It records appropriations,
    apportionments, allocations, and individual contract obligations and payments.
    Obligations and payments occur on a daily basis as contract awards and
    modifications are executed, contractor invoices are processed for payment, and
    funds are outlayed.

During the first five months of PY 2012, relevant data for Job Corps contracts
maintained in three information systems (NCFMS, JFAS and JC-FMS) did not interface,
and the ability to perform electronic reconciliations of this data did not exist. ETA
                                                                 The U.S. Department of Labor’s
                                                         Employment and Training Administration
                                              Needs to Strengthen Controls over Job Corps Funds
                                             16                    Report No. 22-13-015-03-370
                                                                           Prepared by KPMG LLP
                                     for the U.S. Department of Labor – Office of Inspector General

personnel stated that manual reconciliations were performed, as needed, over
necessary data to assist in analyzing the projected PY 2012 funding shortfall. However,
data from these three systems were not formally reconciled on a routine basis.

Resources were not dedicated to design interfaces between NCFMS, JFAS, and JC-
FMS. In addition, ETA did not develop and implement formal policies or procedures
defining roles and responsibilities and did not have adequate resources to ensure that
system-generated data between these systems were properly reconciled on a routine
basis and that the reconciliations were sufficiently documented.

The GAO Standards states:

      Control activities occur at all levels and functions of the entity. They
      include a wide range of diverse activities such as approvals,
      authorizations, verifications, reconciliations, performance reviews,
      maintenance of security, and the creation and maintenance of related
      records which provide evidence of execution of these activities as well as
      appropriate documentation. Control activities may be applied in a
      computerized information system environment or through manual
      processes.

Furthermore, the Standards states:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

The lack of appropriate interfaces among systems may lead to inefficient use of
resources and increased risk from human error. Without adequate controls to formally
reconcile data on a routine basis between the aforementioned systems, data and
information used in spending plans and monitoring tools to make program and financial
decisions could be incomplete and inaccurate.

Finding 9 — Insufficient Monitoring over Job Corps Contract Vouchers

No formal Job Corps-specific policies and procedures were in place to specify the timing
requirements of processing vouchers or to monitor delinquent Job Corps contract
vouchers to be received and processed for payment. As part of gaining an
understanding of the processes and controls over the data supporting spending
projections and monitoring for the period July 1 to November 30, 2012, we noted that a
selected voucher was signed by the contractor but was not date stamped as received
and processed by the COR until approximately two months later; it was entered into
NCFMS five days after COR processing. This unprocessed voucher was identified after

                                                                 The U.S. Department of Labor’s
                                                         Employment and Training Administration
                                              Needs to Strengthen Controls over Job Corps Funds
                                             17                    Report No. 22-13-015-03-370
                                                                           Prepared by KPMG LLP
                                     for the U.S. Department of Labor – Office of Inspector General

the two subsequent numerically-sequenced vouchers had been processed by other
authorized certifying officers within the same Regional Office.

The COR was not in the office when this unprocessed voucher was expected to be
received, and Regional Office personnel did not properly track or monitor this missing
voucher to ensure that it had been received and processed timely.

The GAO Standards states:

      …management is responsible for developing the detailed policies,
      procedures, and practices to fit their agency’s operations and to ensure
      that they are built into and an integral part of operations.

The Standards also states:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

Furthermore, the Standards states:

      Transactions should be promptly recorded to maintain their relevance and
      value to management in controlling operations and making decisions. This
      applies to the entire process or life cycle of a transaction or event from the
      initiation and authorization through its final classification in summary
      records. In addition, control activities help to ensure that all transactions
      are completely and accurately recorded.

Without proper controls over the timely receipt and processing of invoices, expenditures
could be recorded in the improper period, and contractors may experience cash flow
issues.

Monitoring of Projected to Actual Costs

Each Job Corps center maintains an annual budget, the majority of which is associated
with estimated costs per its respective cost reimbursable contract. Job Corps centers
submit bi-weekly vouchers for payment of reimbursable costs and submit monthly cost
reports within JC-FMS. An OJC Regional Office COR reviews these invoices and cost
reports to ensure that actual costs are supported and within the contract budget. The
Job Corps Policy and Requirements Handbook (PRH) requires the evaluation of
variances of planned contract costs to actual contract costs per the monthly cost reports
and identifies thresholds per line item cost that require contractor explanations.


                                                                 The U.S. Department of Labor’s
                                                         Employment and Training Administration
                                              Needs to Strengthen Controls over Job Corps Funds
                                             18                    Report No. 22-13-015-03-370
                                                                           Prepared by KPMG LLP
                                     for the U.S. Department of Labor – Office of Inspector General

During our audit, we identified the following control deficiencies related to monitoring of
projected to actual costs:

Finding 10 — Lack of Recurring Monitoring over Budget to Actual Job Corps
Contract Costs at the National Office

The ETA National Office did not monitor total projected Job Corps contract costs
against actual contract costs for the period July 1 through September 30, 2012. Based
on review of the monitoring documentation by the National Office over budget to actual
Job Corps contract costs in October and November 2012, we noted that no defined
thresholds were used to investigate variances and no explanations were documented
for such variances.

ETA personnel stated that the contract values and the projected monthly spending
submitted for its contracts were not reliable at the start of PY 2012. ETA recognized that
the contract values and the resulting projections would change once decisions were
made and contract modifications were implemented. As a result, ETA focused
budgetary staff resources on the evaluation of contractor proposals for program
changes at the beginning of the year. For monitoring performed in October and
November 2012, no defined thresholds were utilized and no variance explanations were
documented because ETA was using such analysis as part of the continuing decision
making process surrounding the PY 2012 financial situation and this information was
not considered necessary at the time.

The GAO Standards states:

       Internal control and all transactions and other significant events need to be
       clearly documented, and the documentation should be readily available for
       examination. The documentation should appear in management
       directives, administrative policies, or operating manuals and may be in
       paper or electronic form. All documentation and records should be
       properly managed and maintained.

The Standards also states:

       Internal control should generally be designed to assure that ongoing
       monitoring occurs in the course of normal operations. It is performed
       continually and is ingrained in the agency’s operations. It includes regular
       management and supervisory activities, comparisons, reconciliations, and
       other actions people take in performing their duties.

Without adequate policies or procedures to monitor budget to actual Job Corps contract
costs on a recurring basis at an overall level using defined variance thresholds,
spending trends may not be properly analyzed, resulting in an inability to apply timely
corrective actions, if needed.

                                                                 The U.S. Department of Labor’s
                                                         Employment and Training Administration
                                              Needs to Strengthen Controls over Job Corps Funds
                                             19                    Report No. 22-13-015-03-370
                                                                          Prepared by KPMG LLP
                                    for the U.S. Department of Labor – Office of Inspector General

Finding 11 — Insufficient Monitoring over Job Corps Center Contractors’ Cost
Reports at the Regional Offices

As part gaining an understanding of the processes and controls over the monitoring of
projected to actual costs for the period July 1 to November 30, 2012, a selected cost
report for the month of October totaling approximately $872 thousand identified that 13
of the 29 expense categories either had an actual cost overrun or underrun compared to
planned costs that exceeded established variance thresholds of 5 percent or more (plus
or minus) of the line item amount budgeted for the entire contract year. The variances
ranged from approximately $20 thousand to $134 thousand. For the identified variances
above the thresholds, the contractor provided minimal explanations without calculations
or other quantitative support. In addition, correspondence between the COR and
contractor existed for 2 cost overruns, but 11 remaining cost variances were not
addressed. ETA subsequently indicated that 6 of the 13 variance explanations were
appropriate and accurate when factoring in a particular Program Instruction Notice;
however, the documentation provided in total did not clarify whether the explanations
addressed the full variance amount, addressed a minimal portion of the variance, or
created a new variance (such as a budget surplus becoming a budget deficit).

Policies and procedures per the PRH did not address the precision of detail required for
contractors to explain variances between actual expenses and planned expenses on
their cost reports. In addition, outdated Regional Office standard operating procedures
did not address how CORs should address cost variances in excess of the established
thresholds and how their actions should be documented nor were monitoring controls in
place to ensure that CORs were performing these duties properly.

The GAO Standards states:

      …management is responsible for developing the detailed policies,
      procedures, and practices to fit their agency’s operations and to ensure
      that they are built into and an integral part of operations.

The Standards also states:

      Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

Per the PRH Chapter 5: Administration, Appendix 502 regarding the display and
evaluation of variances of planned contract costs to actual contract costs:

      Reported variances may occur for a number of reasons, including:
      (i) erroneous assumptions in the formulation of the budget, (ii) unforeseen
      events requiring greater or fewer financial resources than anticipated,
                                                                The U.S. Department of Labor’s
                                                        Employment and Training Administration
                                             Needs to Strengthen Controls over Job Corps Funds
                                            20                    Report No. 22-13-015-03-370
                                                                          Prepared by KPMG LLP
                                    for the U.S. Department of Labor – Office of Inspector General

       (iii) poorly controlled spending, and/or (iv) internal reporting or
       computational errors. The identification and analysis of variances may
       lead to a wide range of corrective actions…

In addition, it states:

       For center operating expense, the cost reports for contract centers will
       identify budgetary variances by individual cost category on a contract
       year-to-date basis. A line item variance is simply the difference between
       planned contract year-to-date cost and the actual contract year-to-date
       cost.

       For individual line items, 01-29, an explanation is required if the variance
       is 5 percent or more (plus or minus) of the line item amount budgeted for
       the entire contract year. However, no explanation is required if the dollar
       amount of the variance for an individual line item represents less than 0.1
       percent of the total center operations budget (line 30) for the entire
       contract year…An explanation is further required whenever the current
       contract year-to-date total Actual Expense for Center Operations exceeds
       the Planned Total Expense by an amount equating to 1 percent of the total
       budget for the current contract year.

Without proper policies and procedures which address the precision of detail required
for contractors to explain variances between actual expenses and planned expenses on
their cost reports, OJC may not understand the reasons for the variances and be able to
address them appropriately.




                                                                The U.S. Department of Labor’s
                                                        Employment and Training Administration
                                             Needs to Strengthen Controls over Job Corps Funds
                                            21                    Report No. 22-13-015-03-370
                                              Prepared by KPMG LLP
        for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    The U.S. Department of Labor’s
                            Employment and Training Administration
                 Needs to Strengthen Controls over Job Corps Funds
                22                    Report No. 22-13-015-03-370
                                                                         Prepared by KPMG LLP
                                   for the U.S. Department of Labor – Office of Inspector General


RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

1. Establish necessary criteria and thresholds for detecting potential financial and
   program risks to be routinely documented and communicated, and identify the
   appropriate personnel within DOL to receive this periodic information.
2. Develop and implement formal policies and procedures or enhance existing policies
   and procedures to:
   a. Standardize OJC Regional Office standard operating procedures to reflect
      current processes and systems and define roles and responsibilities, including
      deadlines and general timing requirements pertinent to those roles and
      responsibilities, of OFA, OCM, and OJC;
   b. Define precision of detail required for contractors to explain variances between
      budget and actual expenses on their cost reports;
   c. Identify required monitoring procedures to ensure that CORs are performing their
      duties properly;
   d. Establish timing requirements for processing Job Corps vouchers, and monitor
      delinquent vouchers to be received and processed for payment;
   e. Retain readily available relevant documentation associated with Job Corps funds’
      processes and controls, including spending plans;
   f. Adequately support and document key plan assumptions and data inputs in initial
      Operations spending plans;
   g. Analyze and document quarterly apportionment requirements for Operations
      funds; and
   h. Monitor budget contract costs to actual contract costs at the National Office on a
      recurring basis using established variance thresholds.

3. Conduct a formal assessment of human capital resources needed for processes and
   internal controls over Job Corps funds, and periodically update the assessment.

4. Periodically review and update the policy for developing cost models applied in
   determining the IGCE used in Job Corps center contracting activities to incorporate
   the use of more current guidance and assumptions.

5. Formally reconcile data on a routine basis between NCFMS, JFAS, and JC-FMS.

6. Evaluate the cost-benefit of creating system interfaces between NCFMS, JFAS, and
   JC-FMS.




                                                               The U.S. Department of Labor’s
                                                       Employment and Training Administration
                                            Needs to Strengthen Controls over Job Corps Funds
                                           23                    Report No. 22-13-015-03-370
                                              Prepared by KPMG LLP
        for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    The U.S. Department of Labor’s
                            Employment and Training Administration
                 Needs to Strengthen Controls over Job Corps Funds
                24                    Report No. 22-13-015-03-370
                                                   Prepared by KPMG LLP
             for the U.S. Department of Labor – Office of Inspector General




Appendices




                                         The U.S. Department of Labor’s
                                 Employment and Training Administration
                      Needs to Strengthen Controls over Job Corps Funds
                     25                    Report No. 22-13-015-03-370
                                              Prepared by KPMG LLP
        for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    The U.S. Department of Labor’s
                            Employment and Training Administration
                 Needs to Strengthen Controls over Job Corps Funds
                26                    Report No. 22-13-015-03-370
                                                                                 Prepared by KPMG LLP
                                           for the U.S. Department of Labor – Office of Inspector General



Appendix A
Background

Job Corps Background 12

Job Corps is a national residential training and employment program administered by
the Department of Labor (DOL) to address the multiple barriers to employment faced by
disadvantaged youth throughout the United States. Job Corps provides educational and
career technical skills training and support services. Job Corps was originally
established by the Economic Opportunity Act of 1964. Current authorization for the
program is Title 1, Subtitle C, of the Workforce Investment Act of 1998.

Job Corps is administered by the DOL Employment and Training Administration’s (ETA)
Office of Job Corps (OJC), under the leadership of the National Director, supported by
the National OJC and a field network of six Regional Offices (located in Atlanta, Boston,
Chicago, Dallas, Philadelphia, and San Francisco). Education, training, and support
services are provided to students at 125 Job Corps center campuses located
throughout the United States.

The OJC awards contracts to support a system of primarily residential centers offering
basic academic education, career technical training, work experience, and other support
to economically disadvantaged youth. Large and small corporations and non-profit
organizations manage and operate 97 Job Corps centers under these contractual
arrangements. The remaining 28 centers are operated through inter agency agreements
between DOL and the U.S. Department of Agriculture. In addition, 25 operators are
contracted to provide outreach and admissions and career transition services.

In June 2012, the Office of Inspector General (OIG) was notified by the Secretary of
Labor of insufficient funding in the OJC Program Year (PY) 2011 appropriations. DOL
requested that the Office of Management and Budget (OMB) transfer $26.2 million from
OJC construction funds to its Operation fund to close this funding gap in PY 2011.
Furthermore, other financial management issues have been noted in relation to OJC
budgeting and accounting areas.

In the June 2012 notification, the Secretary of Labor requested the OIG to perform a
review of the internal controls currently in place over decentralized contract operations,
both in the regions and at Headquarters, including preventative and detective controls,
and that the OIG provide a report of findings with any appropriate recommendations.

12
   Sources: http://www.jobcorps.gov/AboutJobCorps.aspx,
http://www.jobcorps.gov/AboutJobCorps/authority.aspx,
http://www.jobcorps.gov/AboutJobCorps/programproram_design.aspx, and
http://www.jobcorps.gov/AboutJobCorpsAboutJObCorps/program_admin.aspx, pages last updated March
20, 2013; U.S. Department of Labor, Agency Financial Report, Fiscal Year 2011; Memorandum from
Hilda L. Solis, Secretary of Labor to Daniel Petrole, Acting Inspector General, Office of Job Corps
Financial Controls, June 2012.
                                                                           The U.S. Department of Labor’s
                                                                   Employment and Training Administration
                                                       Needs to Strengthen Controls over Job Corps Funds
                                                      27                     Report No. 22-13-015-03-370
                                                                         Prepared by KPMG LLP
                                   for the U.S. Department of Labor – Office of Inspector General



PY 2012 Organization Chart

The following organization chart represents the primary agencies and offices that have
significant roles related to the fund management, contracting, and expense/payment
processes of the Job Corps funds.




                  OCFO                  ETA


                    OFA               OCM                      OJC
Funds Management

Job Corps spending plans are developed for all funds including Operations,
Construction, Rehabilitation and Acquisition (CRA), and Administration. These spending
plans are submitted to OMB when requesting funding for apportionment. Once these
funds are apportioned, ETA submits allotment requests to the Departmental Budget
Center (DBC) and the Office of the Chief Financial Officer (OCFO), which then allots
funds and makes them available for obligation throughout the program year.

Given the nature of cost reimbursable contracts associated with Operations funds,
projected costs are primarily determined based on estimated costs contained in each
contract awarded by Office of Contract Management (OCM). Therefore, OJC Regional
Offices and OFA must monitor and manage these projected costs to ensure that actual
costs remain within appropriated levels. In addition, all contracts should be properly
recorded and maintained to ensure that all projected costs are captured. These
projected costs are manually recorded by Office of Financial Administration (OFA) and
maintained within the Job Corps Financial Management System (JC-FMS) and Job
Corps Fund Allocation System (JFAS). Before the creation of OFA, program analysts
within OJC manually recorded these projected costs.

Actual reimbursed and unreimbursed costs are manually recorded into JC-FMS by Job
Corps center contractors and are reviewed by OJC. Actual reimbursed costs are
approved by OJC and processed for payment in the New Core Financial Management
System (NCFMS) by DOL’s Office of the Assistant Secretary for Administration and
Management (OASAM).
                                                               The U.S. Department of Labor’s
                                                       Employment and Training Administration
                                            Needs to Strengthen Controls over Job Corps Funds
                                           28                    Report No. 22-13-015-03-370
                                                                          Prepared by KPMG LLP
                                    for the U.S. Department of Labor – Office of Inspector General



Contracting Activities

Job Corps contracting activities are primarily initiated by OJC Regional Offices who
communicate with OFA to determine if funding is available for Job Corps center
contracting. If budgeting for a potential contract is allowed, the OFA budget division
creates an Independent Government Cost Estimate (IGCE) which is later used to assist
the OCM contracting officers in soliciting and evaluating proposals. Before the creation
of OFA in August 2012, the available funding was determined by the OJC National
Office. The Contracting Officer Representatives (CORs) at the OJC Regional Offices
work with Contracting Officers (COs) within OCM through the pre-solicitation to proposal
phases of each contract.

Once a contract is awarded by a CO, an obligation is recorded in NCFMS by OCM. For
cost reimbursable contract awards, obligations are incrementally recorded in NCFMS by
OFA for each contract on a quarterly basis. Also, OFA manually records the estimated
cost for each contract into JFAS and JC-FMS for monitoring purposes.

Payment/Expenditure Processes

Job Corps payment/expenditure processes and internal controls include Job Corps
centers submitting bi-weekly vouchers for payment of reimbursable expenses and
submitting monthly cost reports within JC-FMS. These invoices and cost reports are
reviewed by an OJC Regional Office COR to ensure that actual costs are supported and
within the contract budget.




                                                                The U.S. Department of Labor’s
                                                        Employment and Training Administration
                                             Needs to Strengthen Controls over Job Corps Funds
                                            29                    Report No. 22-13-015-03-370
                                              Prepared by KPMG LLP
        for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    The U.S. Department of Labor’s
                            Employment and Training Administration
                 Needs to Strengthen Controls over Job Corps Funds
                30                    Report No. 22-13-015-03-370
                                                                          Prepared by KPMG LLP
                                    for the U.S. Department of Labor – Office of Inspector General



Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

We conducted this performance audit to determine the root cause of the Department of
Labor’s (DOL’s) Job Corps Program Year (PY) 2011 funding shortfall which
necessitated the $26.2 million budget transfer request during PY 2011 and to determine
whether management had implemented a properly designed system of internal controls
over Job Corps funds and expenditures, including contracting activities, during the first
five months of PY 2012 covering July 1, 2012 through November 30, 2012.

Scope

Our performance audit scope included factors related to the Job Corps PY 2011 funding
shortfall and processes and internal controls related to Job Corps funds management,
contracting activities, and payments/expenditures during the first five months of PY
2012.

Methodology

To determine the root cause of the PY 2011 funding shortfall which necessitated the
$26.2 million budget transfer request in PY 2011, we conducted interviews with key
management personnel and reviewed documentation. During our work over the first five
months of PY 2012, we reviewed existing policies and procedures, performed
walkthroughs at the National Office and one of six Regional Offices, and selected
nonstatistical samples for testing, to assess DOL’s design and implementation of
internal controls over Job Corps funds and expenditures using the Government
Accountability Office’s (GAO) Standards on Internal Control in the Federal Government
as criteria.

Criteria

GAO’s Standards on Internal Control in the Federal Government GAO/AIMD-0021.3.1,
dated November 1999.




                                                                The U.S. Department of Labor’s
                                                        Employment and Training Administration
                                             Needs to Strengthen Controls over Job Corps Funds
                                            31                    Report No. 22-13-015-03-370
                                              Prepared by KPMG LLP
        for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    The U.S. Department of Labor’s
                            Employment and Training Administration
                 Needs to Strengthen Controls over Job Corps Funds
                32                    Report No. 22-13-015-03-370
                                                                      Prepared by KPMG LLP
                                for the U.S. Department of Labor – Office of Inspector General



Appendix C
Acronyms and Abbreviations


CO              Contracting Officer
COR             Contracting Officer Representative
CRA             Construction, Rehabilitation and Acquisition
DBC             Departmental Budget Center
DOL             United States Department of Labor
EPS             E-Procurement System
ETA             Employment and Training Administration
GAO             Government Accountability Office
IGCE            Independent Government Cost Estimate
JCDC            Job Corps Data Center
JFAS            Job Corps Fund Allocation System
JC-FMS          Job Corps Financial Management System
NCFMS           New Core Financial Management System
OASAM           Office of the Assistant Secretary for Administration and
                Management
OCFO            Office of the Chief Financial Officer
OCM             Office of Contracts Management
OFA             Office of Financial Administration
OIG             Office of Inspector General
OJC             Office of Job Corps
OMB             Office of Management and Budget
PRH             Job Corps Policy and Requirement Handbook
PY              Job Corps Program Year
SOP             Standard Operating Procedure




                                                            The U.S. Department of Labor’s
                                                    Employment and Training Administration
                                         Needs to Strengthen Controls over Job Corps Funds
                                        33                    Report No. 22-13-015-03-370
                                              Prepared by KPMG LLP
        for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    The U.S. Department of Labor’s
                            Employment and Training Administration
                 Needs to Strengthen Controls over Job Corps Funds
                34                    Report No. 22-13-015-03-370
                                                                     Prepared by KPMG LLP
                               for the U.S. Department of Labor – Office of Inspector General



Appendix D
Employment and Training Administration Response to Draft Report




                                                           The U.S. Department of Labor’s
                                                   Employment and Training Administration
                                        Needs to Strengthen Controls over Job Corps Funds
                                       35                    Report No. 22-13-015-03-370
                                      Prepared by KPMG LLP
for the U.S. Department of Labor – Office of Inspector General




                            The U.S. Department of Labor’s
                    Employment and Training Administration
         Needs to Strengthen Controls over Job Corps Funds
        36                    Report No. 22-13-015-03-370
                                      Prepared by KPMG LLP
for the U.S. Department of Labor – Office of Inspector General




                            The U.S. Department of Labor’s
                    Employment and Training Administration
         Needs to Strengthen Controls over Job Corps Funds
        37                    Report No. 22-13-015-03-370
                                      Prepared by KPMG LLP
for the U.S. Department of Labor – Office of Inspector General




                            The U.S. Department of Labor’s
                    Employment and Training Administration
         Needs to Strengthen Controls over Job Corps Funds
        38                    Report No. 22-13-015-03-370
                                      Prepared by KPMG LLP
for the U.S. Department of Labor – Office of Inspector General




                            The U.S. Department of Labor’s
                    Employment and Training Administration
         Needs to Strengthen Controls over Job Corps Funds
        39                    Report No. 22-13-015-03-370
                                      Prepared by KPMG LLP
for the U.S. Department of Labor – Office of Inspector General




                            The U.S. Department of Labor’s
                    Employment and Training Administration
         Needs to Strengthen Controls over Job Corps Funds
        40                    Report No. 22-13-015-03-370
                                               Prepared by KPMG LLP
         for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                     The U.S. Department of Labor’s
                             Employment and Training Administration
                  Needs to Strengthen Controls over Job Corps Funds
                 41                    Report No. 22-13-015-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
